D-2010-078                          August 16, 2010




     Air Force Use of Time-and-Materials Contracts in
                      Southwest Asia
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
4PAE03         Worldwide Planning, Program, and Design Contracts – 2003
4PAE08         Worldwide Planning, Program, and Design Contracts – 2008
AE             Architect-Engineering
AFCEE          Air Force Center for Engineering and the Environment
COR            Contracting Officer’s Representative
D&F            Determination and Findings
DFARS          Defense Federal Acquisition Regulation Supplement
FAR            Federal Acquisition Regulation
IDIQ           Indefinite-Delivery, Indefinite-Quantity
IG             Inspector General
PNM            Price Negotiation Memorandum
QASP           Quality Assurance Surveillance Plan
SOW            Statement of Work
T&M            Time-and-Materials
U.S.C.         United States Code
                                  INSPECTOR GENERAL 

                                DEPARTMENT OF DEFENSE 

                                 400 ARMY NAVY DR IVE 

                            ARLINGTON , VIRG INIA 22202- 4704 





                                                                          August 16, 2010

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
              DIRECTOR, AIR FORCE CENTER FOR ENGINEERING
                 AND THE ENVIRONMENT

SUBJECT: Air Force Use of Time-and-Materials Contracts in Southwest Asia
         (Repolt No. D-20 I 0-078)

We are providing this report for review and comment. We considered comments from
the Deputy Director, Air Force Center for Engineering and the Environment, when
preparing the final report.

DoD Directive 7650.3 requires that all reconmlendations be resolved promptly. The
Deputy Director, Air Force Center for Engineering and the Environment, comments were
partially responsive. Therefore, we request additional comments on Recommendations
A.I and A.2 by September 16, 20 I O. As a result of management comments on the draft,
we deleted Finding B and Recommendation B and renamed Finding C and Recom­
mendation C to Finding B and Recommendation B.

Ifpossible, send management comments in electronic format (Adobe Acrobat file only)
to audacm@dodig.mil. Copies of management comments must have the actual signature
of the authorizing official for your organization. We cannot accept the / Signed / symbol
in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network
(SIPRNET).

We appreciate the cOUltesies extended to the staff. Please direct questions to me at (703)
604-920 I (DSN 664-920 I).




                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
 Report No. D-2010-078 (Project No. D2009-D000CF-0095.001)	                             August 16, 2010


               Results in Brief: Air Force Use of Time-and-
               Materials Contracts in Southwest Asia

What We Did                                                 invoices include only allowable,
We determined whether DOD officials awarded                 reasonable, and allocable costs; and
and administered 6 time-and-materials contracts          •	 hold officials accountable by developing
valued at $120.8 million for work in Southwest              internal controls for adequately
Asia in accordance with the Federal Acquisition             documenting and describing their decisions
Regulation (FAR).                                           during the award process.

What We Found                                           Management Comments and
Officials at the Air Force Center for Engineering       Our Response
and the Environment (AFCEE):                            The Deputy Director, AFCEE, did not agree
  •	 Did not adequately monitor the title II            with some parts of the findings and some of the
      contractors working in Southwest Asia and         recommendations.
      did not adequately review invoices because
      the title II contracting officer’s                Specifically, the Deputy Director did not agree
      representatives did not conduct site visits       that:
      to Southwest Asia and, according to the             •	 AFCEE did not conduct adequate
      contracting officer, there were not enough              oversight of title II contractors. The
      personnel to review invoices. As a result,              Deputy Director agreed to ensure that
      AFCEE has no assurance that the                         AFCEE appointed appropriate contracting
      contractors were working efficiently and                officer’s representatives for the title II
      effectively and AFCEE paid for                          contractors in the future. However, we do
      $24.3 million in labor costs that were not              not believe this will result in improved
      part of the contract.                                   contractor performance.
  •	 Did not fully support award decisions for            •	 preparing quality assurance surveillance
      the task orders because officials did not               plans was a requirement for architect-
      comply with the FAR. As a result,                       engineering contracts. However, we
      officials put AFCEE at risk for                         assert that FAR 46.4, “Government
      overcharges and labor inefficiencies by the             Contract Quality Assurance,” is applicable.
      contractor and could not be sure that the
      labor prices were fair and reasonable.            In addition, the AFCEE comments are not
                                                        responsive for Recommendations A.1 and A.2.
What We Recommend                                       We request the Air Force reconsider its position
The Director, AFCEE:                                    on the recommendations and provide comments
 •	 direct officials to conduct appropriate
            in response to the final report. The AFCEE
     surveillance of contractors; 
                     comments on Recommendations A.3 and B are
 •	 develop a written plan for reviewing                responsive. Please see the recommendations
     invoices and request that the Defense              table on the back of this page.
     Contract Audit Agency analyze contractor
     invoices and their supporting
     documentation to determine whether the


                                                    i
Report No. D-2010-078 (Project No. D2009-D000CF-0095.001)              August 16, 2010


Recommendations Table

Management                       Recommendations            No Additional Comments
                                 Requiring Comment          Required
Director, Air Force Center for   A.1 and A.2.               A.3 and B.
Engineering and the
Environment

Please provide comments by September 16, 2010.




                                            ii
Table of Contents

Introduction                                                           1


      Objectives                                                       1

      Background                                                       1

      Review of Internal Controls                                      2


Finding A. Contract Oversight                                          3


      Management Comments on the Finding and Our Response             10 

      Recommendations, Management Comments, and Our Response          11 


Finding B. Task Order Documentation                                   14


      Management Comments on the Finding and Our Response             20 

      Recommendations, Management Comments, and Our Response          20 


Appendices

      A. Scope and Methodology                                        22 

      B. Prior Coverage                                               25 


Management Comments

      Air Force Center for Engineering and the Environment Comments   27 

Introduction
Objectives
Our overall audit objective was to determine whether DOD awarded and administered
time-and-materials (T&M) contracts for Southwest Asia in accordance with the Federal
Acquisition Regulation (FAR). Specifically, we reviewed the Air Force’s award
procedures and contract oversight to determine compliance with the FAR and other DOD
policies. See Appendix A for a discussion of the scope and methodology. See
Appendix B for prior coverage related to the objectives.

We performed this audit pursuant to Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” section 842, “Investigation of Waste, Fraud,
and Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,”
January 28, 2008. Section 842 requires “thorough audits . . . to identify potential waste,
fraud, and abuse in the performance of (1) Department of Defense contracts,
subcontracts, and task and delivery orders for the logistical support of coalition forces in
Iraq and Afghanistan; and (2) Federal agency contracts, subcontracts, and task and
delivery orders for the performance of security and reconstruction functions in Iraq and
Afghanistan.” We reviewed six task orders that required contractors to perform work in
Iraq and Afghanistan.

Background
This is our second report addressing T&M contracts for work performed in Southwest
Asia. This report addresses whether the Air Force Center for Engineering and the
Environment (AFCEE) correctly awarded and administered T&M contracts. AFCEE is a
field operating agency of the Air Force Civil Engineer located at Brooks City-Base in San
Antonio, Texas. Its mission is to provide integrated engineering and environmental
management, execution, and technical services that optimize Air Force and Joint
capabilities through sustainable installations.

Our first report addressed whether the Army’s Communications Electronics Command
Acquisition Center, Research Development and Engineering Command Acquisition
Center, and White Sands Missile Range Army Contracting Activity correctly awarded
and administered T&M contracts.

AFCEE’s Architect-Engineering Contracts
AFCEE awarded two sets of contracts for architect-engineering (AE) services, titled
“Worldwide Planning, Program, and Design.” AFCEE awarded the first set of
Worldwide Planning, Program, and Design contracts in 2003 (4PAE03) and the second
set of contracts in 2008 (4PAE08). Upon award of the 4PAE08 contracts, the 4PAE03
contracts were no longer available for new task orders.



                                              1

4PAE03 was a multiple-award vehicle that included 30 contracts structured as indefinite-
delivery, indefinite-quantity (IDIQ) contracts. AFCEE could award firm-fixed-price,
fixed-price-incentive, and T&M task orders to any of the vendors using 4PAE03.
4PAE03 offered title I, title II, and other AE services.

Generally, title I services are typical AE services, to include all aspects of design and
efforts required to support and develop design work; title II services are quality assurance
and oversight services, to include supervision and inspection; and other AE services are
those related to AE that do not fall into either the title I or title II descriptions.

4PAE08 is a multiple-award vehicle that included 29 of the 30 contractors from the
4PAE03 vehicle. Only one contractor, Versar Inc., did not receive a contract for the
4PAE08 multiple-award. AFCEE could award firm-fixed-price and T&M task orders to
any of the vendors using 4PAE08. 4PAE08 also offered title I, title II, and other AE
services.

Review of Internal Controls
DOD Instruction 5010.40, “Manager’s Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for AFCEE. AFCEE did not have the following internal controls for contract
administration and management: procedures to conduct oversight of the title II
contractors; procedures to properly review invoices; or procedures to ensure that task
order files contained a detailed and documented analysis representing a complete history
of the task order. Implementing Recommendations A.1, A.2, A.3, and B will improve
these conditions. We will provide a copy of the report to the senior official responsible
for internal controls.




                                             2

Finding A. Contract Oversight
AFCEE contracting and program officials did not perform adequate contract oversight for
work performed on the 6 task orders we reviewed valued at $120.8 million. Specifically,
for the six task orders reviewed, contracting and program officials:

   •	 did not monitor the contractors hired to perform the oversight function for 

      construction work in Iraq and Afghanistan for five task orders valued at

      $110.2 million; 

   •	 did not adequately review invoices for five task orders valued at $98.6 million;
      and
   •	 did not prepare quality assurance surveillance plans (QASPs) for the six task
      orders.

These conditions occurred because the title II contracting officer’s representatives
(CORs) did not conduct site visits or monitor the title II contractors working in Iraq and
Afghanistan. According to the contracting officer, there were not enough personnel to
review the invoices initially.

As a result, the Air Force has no assurance that the contractors were working efficiently
and effectively. For example, faulty construction work and other serious engineering and
construction issues resulted in a fire at the Afghan National Army Barracks. In addition,
the Air Force was charged for labor categories and rates that were not included in the
base contract or in the task orders issued. Specifically, the contractor invoiced a total of
$24.3 million in labor costs that AFCEE officials had not agreed to.

Criteria
T&M contracts are risky to the Government because there is no incentive for contractors
to control costs or labor efficiency. FAR 16.601, “Time-and-Materials Contracts,”
defines a T&M contract as a contract that:

               . . . provides for acquiring supplies or services on the basis of—(1)
               Direct labor hours at specified fixed hourly rates that include wages,
               overhead, general and administrative expenses, and profit; and (2)
               Materials at cost, including, if appropriate, material handling costs as
               part of material costs.

On a T&M contract or task order, the Government reimburses the contractor based on
actual cost of materials and direct labor hours at specified, fixed hourly rates that include
wages, indirect costs, and profit. This type of contract or task order does not encourage
efficient contractor performance because the contractor gets reimbursed for all incurred
costs plus profit. Therefore, appropriate Government oversight, also known as contract
surveillance or quality assurance of contractor performance, is required to provide
reasonable assurance that efficient methods and effective cost controls are used
throughout the life of the contract or task order.

                                                  3

FAR 46.101, “Definitions,” defines Government contract quality assurance as “the
various functions, including inspection, performed by the Government to determine
whether a contractor has fulfilled the contract obligations pertaining to quality and
quantity.” One way to ensure quality assurance is to develop a QASP. FAR 46.401,
“General,” states that these plans should specify all work requiring surveillance and the
method of surveillance. It also requires the Government to conduct quality assurance to
ensure that the contractor is performing in accordance with the statement of work.
Surveillance of contractor performance and cost is essential to protect the interests of the
Government.

FAR 37.1, “Service Contracts – General,” prescribes the policies and procedures for the
acquisition and management of services by contract. Specifically, FAR 37.102(f) states,
“Agencies shall establish effective management practices. . .to prevent fraud, waste, and
abuse in service contracting.” FAR 37.102 also states, “(g) Services are to be obtained in
the most cost-effective manner, without barriers to competition. . .” and “(h) Agencies
shall ensure that sufficiently trained and experienced officials are available within the
agency to manage and oversee the contract administration function.”

Defense Federal Acquisition Regulation Supplement (DFARS) 201.602-2,
“Responsibilities,” states that the COR:

               (i) Must be a Government employee, unless otherwise authorized in
               agency regulations; (ii) Must be qualified by training and experience
               commensurate with the responsibilities to be delegated in accordance
               with department/agency guidelines; (iii) May not be delegated
               responsibility to perform functions at a contractor's location that have
               been delegated under FAR 42.202(a) to a contract administration
               office; (iv) Has no authority to make any commitments or changes that
               affect price, quality, quantity, delivery, or other terms and conditions of
               the contract; and (v) Must be designated in writing, and a copy
               furnished the contractor and the contract administration office— (A)
               Specifying the extent of the COR's authority to act on behalf of the
               contracting officer; (B) Identifying the limitations on the COR's
               authority; (C) Specifying the period covered by the designation; (D)
               Stating the authority is not redelegable; and (E) Stating that the COR
               may be personally liable for unauthorized acts.

Contracting Officer’s Representatives
A COR was designated in writing for each of the six task orders, as required by the
DFARS. DFARS 201.602-2, states that contracting officers may designate qualified
personnel as their authorized representatives to assist in the technical monitoring or
administration of a contract. The COR letters outlined the duties, which included
observing the contractor to ensure that they were complying with the task order
requirements and to document safety violations. Although AFCEE designated CORs for
the six task orders, for five of the title II task orders, the CORs did not monitor the
performance of the contractors because the CORs were located in the U.S. and did not
conduct site visits to Iraq and Afghanistan.


                                                   4

Contract Oversight for Title II Work
Role of the Title II Contractors
AFCEE also awarded task orders for construction efforts in Iraq and Afghanistan and
assigned CORs to those construction task orders. As AFCEE awarded construction task
orders, they also awarded task orders for title II services through its 4PAE03 and 4PAE08
contracts. The title II work performed for the 4PAE03 and 4PAE08 contracts was for
quality assurance and oversight services, including supervision and inspection over
construction projects. Therefore, the title II contractors’ role was essentially to perform
the quality assurance portion of contract surveillance of the construction contractors in
Iraq and Afghanistan. Accordingly, the title II contractors reviewed the same
construction projects monitored by the AFCEE construction CORs. Although this may
have been a duplication of coverage, there were still problems with the work done by the
title II and construction contractors.

AFCEE may have put the title II contractors in a position in which the contractors are
performing an inherently governmental function. FAR 7.503, “Policy,” lists functions
generally not considered to be inherently governmental, but may approach being in the
category of an inherently governmental function. Work may approach this category of
services because of the nature of the function and the manner in which the contractor
performs the contract. FAR 7.503 identifies, “Services that involve or relate to the
evaluation of another contractor’s performance” as a service that may approach an
inherently governmental function. This is the type of work the title II contractors are
performing. In addition, because there is no Government oversight of the contractors, the
contractors may be performing an inherently governmental function. Accordingly,
AFCEE officials should conduct a legal review to determine whether these services were
inherently governmental.

Surveillance of the Title II Contractors
AFCEE title II CORs stated that they did not directly monitor the title II contractors’
work, because the title II contractors were, in essence, surveillance officials. In addition,
the title II CORs relied on the construction CORs to learn of any problems with the
title II contractors in the field, because the construction CORs were located in Iraq and
Afghanistan and conducted site visits.

FAR 37.1, “Service Contracts—General,” prescribes policies and procedures for the
acquisition and management of services by contract. Specifically, FAR 37.102(f) states,
“Agencies shall establish effective management practices . . . to prevent fraud, waste, and
abuse in service contracting.” FAR 46.4, “Government Contract Quality Assurance,”
outlines the requirements for ensuring that the contractor is performing in accordance
with the contract requirements. Specifically, 46.401, “General,” states, “Quality
assurance surveillance plans should be prepared in conjunction with the preparation of
the statement of work. The plans should specify—(1) All work requiring surveillance;
and (2) The method of surveillance.”


                                              5

In addition, FAR 16.601(b)(1), “Government surveillance,” states,

               A time-and-materials contract provides no positive profit incentive to
               the contractor for cost control or labor efficiency. Therefore,
               appropriate Government surveillance of contractor performance is
               required to give reasonable assurance that efficient methods and
               effective cost controls are being used.

Although the title II contractors were overseeing other AFCEE task orders (the
construction projects), AFCEE still needed to monitor the title II contractors to ensure the
contractors were providing the work in an effective and efficient manner. Because there
was no on site government surveillance of the title II contractors, the Government had no
assurance that the contractors were working efficiently or effectively.

The title II contractors prepared discrepancy and noncompliance notices for the
construction efforts in Iraq and Afghanistan. For example, from January 10, 2005,
through May 1, 2007, for task order 0055, the contractor identified 3,827 incidents of
discrepancies and noncompliance. Of these 3,827 incidents, 105 incidents were classified
as critical. These critical issues included the use of inferior concrete, structures not
meeting design specifications, exposed electrical wiring, faulty electrical wiring, and
other building safety and structural support issues. Additionally, several buildings were
located in a low drainage area compared to the buildings surrounding them, which caused
rain water to flow inside the buildings.

Although the title II contractors identified many quality deficiencies, other deficiencies
went unreported. The most critical incident was in Afghanistan where multiple electrical
fires occurred at the Kabul Military Training Center, which housed approximately
1,200 Afghan National Army soldiers. These fires occurred because the construction
contractor did not comply with the National Electrical Code and the title II contractors
did not report the construction contractor’s noncompliance. An audit conducted by
AMEC using the First Afghanistan Construction Company revealed, “an alarming lack of
quality control on behalf of the [title II] contractors.”

In addition, the title II COR provided us with reports that identified a possible cause for
major construction issues being unreported. These reports discussed the intimidation
issues that the title II contractors face. In Iraq and Afghanistan, construction and title II
contractors reported many instances in which they were threatened or in danger.

We determined another possible cause for discrepancies and noncompliance occurring or
going unreported—the people hired to perform the title II work may not have the
requisite experience and knowledge to evaluate construction. The statements of work
(SOWs) for the title II task orders state, “Primary technical services shall be performed
by individuals who are credentialed members of architectural, science, construction, and
engineering professions.” The SOW also states, “Title II professionals need not be
licensed professional engineers but must have a demonstrated competence and ability
through a combination of experience and education to adequately ensure quality
construction standards are met.” However, we asked AFCEE contracting officials how
                                                 6

they ensured that the contractor hired qualified personnel and they stated that it was the
contractor’s responsibility to hire employees with the proper qualifications.

An additional possible cause for discrepancies and noncompliance occurring or going
unreported that the audit team identified is that the title II contractors may simply not be
showing up to the construction sites or may not be working effectively and efficiently
once they arrive. Because AFCEE officials did not monitor the title II contractors for
performance, AFCEE has no way of knowing how often the title II contractors worked,
where they worked, or what they did.

Invoices
The CORs only sporadically reviewed invoices. Five of the six task orders reviewed 

were T&M. The remaining task order was primarily T&M (93.4 percent of the amount). 

The rest of the task order was structured as firm-fixed-price. As noted in 

FAR 16.601(b)(1), “Government surveillance,”


               A time-and-materials contract provides no positive profit incentive to
               the contractor for cost control or labor efficiency. Therefore,
               appropriate Government surveillance of contractor performance is
               required to give reasonable assurance that efficient methods and
               effective cost controls are being used.

Surveillance includes reviewing invoices. However, the invoices for four of the six task
orders reviewed did not contain sufficient detail. Several of the invoices for these four
task orders did not provide a detailed breakdown of direct labor. The invoices provided
the total labor hours and rates for each labor category, but did not indicate how many
individuals performed the work or provide a breakdown of hours by employee. Table 1
shows an excerpt from an invoice. The invoice did not identify the number of individuals
performing the work for any of the labor categories in the invoice. For example, the first
labor category, “Local National Construction Inspector,” had 630 billable hours over the
27-day billing period. The invoice did not state how many “Local Nationals Construction
Inspector[s]” worked. If only one person worked for this labor category, that person
would have worked an average of 23.3 hours per day for 27 straight days. Without
knowing exactly how many individuals worked, no one can determine whether the hours
invoiced were reasonable.

       Table 1. Direct Labor – Invoiced Amounts (Excerpt from an Invoice)
                                                 Current            Current
                 Labor Category                             Rate
                                                  Hours             Amount
   Local National Construction Inspector           630       $7.05 $4,441.50
   Local National Junior Engineer                 1,200      10.58 12,696.00
   Third Country National Construction Inspector  1,216      38.35 46,633.60
   Project Manager                                 663      136.75 90,665.25



                                                 7

Also, the invoices presented other direct costs as lump sum amounts with no breakdown
to show what comprised the other direct costs. Table 2 shows an excerpt from a different
invoice. The invoice did not include documentation showing the hours worked or
invoices provided to the prime contractor for the subcontracted labor, which is a
significant cost category that represents 68.8 percent of the total other direct costs.

    Table 2. Other Direct Costs – Invoiced Amounts (Excerpt from an Invoice)
                          Cost Category           Amount
                   Travel                         $68,067.43
                   Other Direct Costs             238,053.60
                   Heavy Equipment                   4,462.00
                   Consultants                    166,799.78
                   Subcontractors               1,108,200.69
                   Inter-Company Transfers          25,912.08
                   Total Other Direct Costs    $1,611,495.58

In addition, AFCEE contracting officials did not conduct adequate reviews of the
invoices for task orders 0055, 0063, 0067, 0083, and 0104. AFCEE awarded task order
0104 the earliest, on April 3, 2006, and task order 0083 the latest, on March 12, 2008.
Modification 5 of task order 0083 identified May 15, 2009, as the end of the task order’s
period of performance. Therefore, for a period of more than 3 years, AFCEE did not
conduct adequate invoice reviews for these task orders because, according to the
contracting officer, AFCEE did not have enough personnel to review the invoices.

However, AFCEE identified this lack of review as a deficiency and hired a team of
contractors to review the invoices. The contractors did not review previously issued
invoices, only new invoices. At the time of our site visit, the contractors were reviewing
only some of the invoices for task order 0032, which AFCEE awarded on September 30,
2008. However, AFCEE expected to hire additional contractors so all invoices could be
reviewed.

We reviewed the invoices to determine whether the labor categories and rates invoiced by
the contractor matched the labor categories and rates in the contract and task order. Five
of the six task orders reviewed had invoice discrepancies related to direct labor. In total,
the contractor invoiced and DOD paid for $24.3 million in labor that AFCEE contracting
officials never agreed to in the basic task orders or modified task orders. There was an
additional $101,678 in direct labor, invoiced and paid on task order 0055 for labor
categories that were not incorporated into the task order until after the billing period of
the invoice ended. According to the contracting officer, AFCEE uses Wide-Area
Workflow to pay its invoices for these task orders, which automatically paid the invoices
when they were received.



                                             8

Task Order 0055
We reviewed 14 vouchers. Of the 23 labor categories invoiced, 4 labor categories with
labor charges totaling $5.9 million were not part of the base contract, basic task order, or
modified task order. In addition, the contractor invoiced a particular labor category for
$101,678. The period of performance for this invoice was November 28, 2006, through
December 29, 2006. However, the labor category was not incorporated into the task
order until modification 6, which was effective on February 2, 2007—after the invoice
shows the work was performed.

Task Order 0063
We reviewed 18 vouchers. Of the 20 labor categories invoiced, 10 labor categories with
labor charges totaling $1.1 million were not part of the base contract, basic task order, or
modified task order.

Task Order 0067
We reviewed 21 vouchers. Of the 17 labor categories invoiced, 5 labor categories with
labor charges totaling $15.8 million were not part of the base contract, basic task order, or
modified task order. In addition, modification 6 extended the period of performance for
this task order into FY 2009. However, the modification to extend the period of
performance did not include new FY 2009 labor rates. Invoices 18 through 21 billed for
work performed in FY 2009. These invoices had 10 labor categories with rates that were
3 percent higher than the rates invoiced in FY 2008. Although 3 percent is a typical
escalation rate for labor rates, this escalation rate was not agreed to in any of the
modifications that extended the period of performance into FY 2009. Therefore, the
contractor charged the Government $9,852 more than what was agreed to in the task
order.

Task Order 0083
We reviewed 10 vouchers. Of the 22 labor categories invoiced, 12 labor categories with
labor charges totaling $998,825 were not part of the base contract, basic task order, or
modified task order.

Task Order 0104
We reviewed 20 vouchers. Of the 24 labor categories invoiced, 14 labor categories with
labor charges totaling $444,365 were not part of the base contract, basic task order, or
modified task order. In addition, the contractor invoiced 10 labor categories for $30,863.
The period of performance for this invoice was September 23, 2006, through October 27,
2006. However, the new labor rates for these 10 labor categories were not incorporated
into the task order until modification 3, which was effective on November 7, 2006—after
the invoice’s period of performance.

Due to the billing discrepancies we identified, AFCEE should establish a written plan to
review the invoices for these task orders and request that the Defense Contract Audit
Agency conduct a review of AFCEE’s T&M invoices to ensure that the contractor
properly billed the Government for work performed.
                                             9

Quality Assurance Surveillance Plans
Contracting officials did not prepare QASPs for the six task orders we reviewed.
FAR Subpart 46.4, “Government Contract Quality Assurance,” outlines the requirements
for ensuring the contractor is performing in accordance with the contract requirements.
Specifically, 46.401, “General,” states, “Quality assurance surveillance plans should be
prepared in conjunction with the preparation of the statement of work. The plans should
specify—(1) All work requiring surveillance; and (2) The method of surveillance.” The
lack of quality assurance surveillance plans occurred because contracting officials did not
comply with the FAR. Furthermore, the QASP should be prepared in conjunction with
the SOW and should specify all work requiring surveillance and the method of
surveillance. Contracting officers did not meet the FAR requirements for preparing the
QASP; however, because there was no Government oversight on-site, we cannot measure
the effect of not having a QASP for these task orders.

Summary
T&M contracts are the riskiest type of contract for the Government. Because of this, the
FAR requires appropriate surveillance to provide reasonable assurance that efficient
methods and effective controls were used. In addition, the FAR requires a written QASP
that specifies the extent and method of surveillance. AFCEE did none of this. AFCEE
did not assign in-theater personnel to oversee the title II contractors, did not have enough
personnel to review invoices, and did not meet the FAR requirements for providing a
QASP. AFCEE did not know whether appropriate personnel were hired, nor did they
have assurance that the contractor worked efficiently or effectively. Furthermore, they
had no assurance the invoiced amounts were reasonable.

Management Comments on the Finding and Our
Response
Department of the Air Force Comments
The Deputy Director, Air Force Center for Engineering and the Environment, partially
agreed with this finding. The Deputy Director did not agree that Air Force personnel did
not monitor the contractors hired to perform title II services. The Deputy Director stated
that contracting officer’s representatives for the construction contracts performed
oversight of the title II contractors. Although the contracting officer’s representatives for
the construction contracts were not properly designated as the contracting officer’s
representatives for the title II contractors, the Air Force is making this administrative
change by designating the construction contracting officer’s representatives also as the
title II contracting officer’s representatives.

The Deputy Director also disagreed that preparing quality assurance surveillance plans
was a requirement for architect-engineering contracts.

The Deputy Director agreed that the Air Force had a weakness with its review of
contractor invoices, but stated that the Air Force implemented a review process in

                                             10

February 2007. The Deputy Director acknowledged that the Air Force Center for
Engineering and the Environment failed to review invoices retroactively.

Our Response
We disagree that the contracting officer’s representatives for construction contracts
provided oversight of the title II contractors. Based on our discussion with a former
contracting officer’s representative for a construction contract in Iraq, the title II
contractors acted as an extension of the oversight function performed by the contracting
officer’s representatives for the construction contract. There was no indication that the
contracting officer’s representatives for the construction projects were onsite to monitor
the work done by the title II contractors.

We also disagree that a quality assurance surveillance plan was not required by the
Federal Acquisition Regulation. FAR 36.101(b) states, “When a requirement in this part
is inconsistent with a requirement in another part of this regulation, this Part 36 shall take
precedence if the acquisition of construction or architect-engineer services is involved.”
However, FAR part 36 does not provide any oversight requirements with the exception of
adding clauses to the contract. Therefore, the lack of surveillance requirements in FAR
part 36 does not suspend the requirement of FAR 46.401, which requires quality
assurance surveillance plans. Finally, FAR 16.601(b)(1), “Government surveillance,”
states,

               A time-and-materials contract provides no positive profit incentive to
               the contractor for cost control or labor efficiency. Therefore,
               appropriate Government surveillance of contractor performance is
               required to give reasonable assurance that efficient methods and
               effective cost controls are being used.



Recommendations, Management Comments, and Our
Response
A. We recommend that the Director, Air Force Center for Engineering and the
Environment:

       1. Establish a written plan to review the invoices for time-and-materials task
orders; request the Defense Contract Audit Agency’s assistance in reviewing
invoices for allowable, allocable, and reasonable costs; obtain reimbursements for
incorrect charges; and report the amounts reimbursed on a periodic basis to the
appropriate officials and the DOD Inspector General. The plan should require
special attention to the $24.3 million of charges for labor charges invoiced by the
contractors but not authorized by the task orders.

Department of the Air Force Comments
The Deputy Director, Air Force Center for Engineering and the Environment, disagreed.
The Deputy Director stated that surveillance plans are prepared for each task order and

                                                11

placed in each file. The Deputy Director stated that invoice review teams are in place to
validate contractor invoices before payments are made to DFAS.

Our Response
The Air Force comments are nonresponsive. We did not address surveillance plans in
this recommendation. Furthermore, the plans identified by the Air Force Center for
Engineering and the Environment as surveillance plans did not address reviewing
invoices. Also, the Deputy Director already stated in the comments on the finding that
the contractor hired to review invoices did not retroactively review invoices; therefore,
problems with earlier invoices were not identified. In addition, the $24.3 million in
improper labor charges should be recouped by the Government. The intent of the
recommendation is for the Air Force to develop a written plan for recouping, as
appropriate, the overpayments to the contractor. We request that the Air Force reconsider
its position on the recommendation and provide comments on the final report.

       2. Assign contracting officer’s representatives or other Government officials
to develop quality assurance surveillance plans and conduct and document
appropriate surveillance over the title II contractors to ensure that work performed
on a time-and-materials basis is being performed in accordance with the task order
requirements and is invoiced correctly.

Department of the Air Force Comments
The Deputy Director, Air Force Center for Engineering and the Environment, disagreed.
The Air Force recognizes that it did not properly designate construction contracting
officer’s representatives as the contracting officer’s representatives for the title II
contractors and that it is correcting this error.

Our Response
The Air Force comments are partially responsive. If the contracting officer believes the
construction contracting officer’s representatives can oversee title II contractors, then the
contracting officer needs to document this in the contract files for the title II task orders.
However, based on our discussion with a former contracting officer’s representative for a
construction contract in Iraq, title II contractors acted as an extension of the oversight
function performed by the contracting officer’s representatives for the construction
contract. There was no indication that the contracting officer’s representatives for the
construction projects were actually onsite to monitor the work done by the title II
contractors. Because we did not review the construction contract, we assume the
construction contracting officer’s representatives have the requisite training and
experience to perform those duties. The Deputy Director’s comments are nonresponsive
with regard to developing quality assurance surveillance plans. The Deputy Director
discussed the quality assurance surveillance plans in his comments on the finding, but not
on this recommendation. We request that the Air Force reconsider its position on the
recommendation and provide comments on the final report.



                                             12

       3. Conduct a legal review of the statements of work for the title II task
orders to determine whether the work performed was an inherently governmental
function.

Department of the Air Force Comments
The Deputy Director, Air Force Center for Engineering and the Environment, agreed and
had the legal division review six statements of work. The legal division concluded that
the contractor did not perform inherently governmental functions.

Our Response
The Air Force comments are fully responsive. No further comments are required.




                                          13

Finding B. Task Order Documentation
We reviewed six task orders valued at $120.8 million that AFCEE contracting officials
awarded using the 4PAE03 and 4PAE08 multiple-award contracts. AFCEE contracting
officials:

   •	 did not prepare a justification for the use of a T&M task order for one task order
      valued at $18.3 million;
   •	 prepared an inadequate justification for the use of a T&M task order for one task
      order valued at $24.0 million;
   •	 did not prepare a source selection document for one task order valued at

      $18.3 million; 

   •	 prepared inadequate source selection documents for three task orders valued at
      $78.5 million;
   •	 prepared inadequate price reasonableness determinations for five task orders
      valued at $110.2 million—specifically, officials did not support that $26.0 million
      in proposed direct labor represented a fair and reasonable price; and
   •	 prepared inadequate technical evaluations for the 6 task orders valued at $120.8
      million.

These conditions occurred because contracting officials made decisions without
adequately documenting the award process and program officials did not properly
complete technical evaluations. As a result, AFCEE contracting officials put the
Government at risk for contractor overcharges and labor inefficiencies and could not be
sure that the labor prices were fair and reasonable.

Justification for Using T&M Task Orders
T&M type contracts and task orders are more risky for the Government because, as stated
in FAR 16.601(b)(1), “Government Surveillance,” a T&M contract “provides no positive
profit incentive to the contractor for cost control or labor efficiency.” Because of this
risk, FAR 16.601(c), “Limitations,” states, “A time-and-materials contract may be used
(1) only after the contracting officer executes a determination and findings that no other
contract type is suitable.”

Of the six task orders reviewed, one task order with a value of $18.3 million did not
contain a determination and findings (D&F) for awarding a T&M task order.

Of the five task orders that had D&Fs for awarding a T&M task order, one of the task
orders with a value of $24.0 million had an inadequate D&F. This D&F was inadequate
because it outlined in general terms why a T&M type task order must be used. As stated
in the current version of DFARS 216.601(d)(i), “The determination and findings shall
contain sufficient facts and rationale to justify that no other contract type is suitable. At a
minimum, the determination and findings shall . . . Establish that it is not possible at the
time of placing the contract or order to accurately estimate the extent or duration of the
work or to anticipate costs with any reasonable degree of certainty . . . .” Although the
                                               14

D&F stated, “It is not possible at the time of placing the task order to estimate accurately
the extent or duration of the unscheduled work or to anticipate the cost with any
reasonable degree of confidence . . . .” the contracting officer did not specify why the
extent and duration of the work could not be estimated because AFCEE contracting
officials did not prepare adequate documentation in accordance with FAR 16.601(d) and
DFARS 216.601(d), “Limitations.” As a result, by using a T&M contract, contracting
officials may have put the Government at risk for overcharges and inefficiency by the
contractor, because, as stated in FAR 16.601(b)(1), there is no incentive for the contractor
to perform efficiently.

Source Selection Documents
Contracting officials did not prepare a source selection document for one task order
reviewed and prepared an inadequate source selection document for three of the six task
orders reviewed. FAR 4.801(b), “General,” states, “The documentation in the files (see
4.803) shall be sufficient to constitute a complete history of the transaction for the
purpose of . . .” In addition, FAR 4.802(a), “Contract Files,” states that a contract file
should generally consist of the contracting office contract file that documents the basis
for the acquisition and the award. Finally, FAR 4.803, “Contents of contract files,” states
that the Government contract file should contain source selection documentation.

AFCEE contracting officials did not prepare a source selection document for task order
0055 with a value of $18.3 million because the contracting officials did not comply with
the FAR requirements for maintaining a complete history of the transaction. As a result,
the rationale for selecting the awardee cannot be reviewed to determine whether the
choice was appropriate.

In addition, contracting officials prepared inadequate source selection documents for
three of the six task orders—task orders 0063, 0067, and 0104 with a value of
$78.5 million—because the contracting officials did not comply with the FAR
requirements for maintaining a complete history of the transaction. As a result, the
documentation did not provide a clear analysis showing why the awardee was most
qualified.

For example, the source selection document for task order 0067 stated the six criteria that
were used in making the source selection. The document also stated that the selection
criteria were reviewed and discussed as they related to each potential contractor.
However, contracting officials did not document the review or any of the discussions of
each potential contractor. There is no additional information on the source selection
document to indicate why the contractor, Versar Inc., was chosen at all. Source selection
documents should clearly document the contracting officials’ analysis so that a third party
can easily review that document and arrive at the same conclusion. AFCEE management
should emphasize the importance of auditability of contract and task order
documentation.



                                            15

Price Reasonableness
Typically, multiple-award contracts provide the Government with the ability to obtain a
reasonable price through competition. Without competition, contracting officials must
use more stringent analysis to determine if prices are fair and reasonable. As previously
stated, AFCEE awarded the six task orders using the procedures outlined in FAR 36,
which does not require full and open competition. Therefore, AFCEE needed to conduct
a more in-depth analysis to show that the proposed prices were fair and reasonable.
FAR 15.404-1(a)(1) states, “The contracting officer is responsible for evaluating the
reasonableness of the offered prices.” Although the general and administrative and
material handling expenses and labor rates for each task order were reviewed and
approved by the Defense Contract Audit Agency, the contracting officer still has to
evaluate the proposed direct labor in order to make a price reasonableness determination.

The five task orders for title II services, with a value of $110.2 million, had inadequate
price reasonableness determinations. Specifically, these determinations did not
adequately support $26.0 million in proposed direct labor (63.0 percent of total proposed
direct labor). The Price Negotiation Memorandums (PNMs) for task orders 0055, 0063,
0067, 0083, and 0032 stated that the labor rates were fair and reasonable based on a
comparison to previous task orders and the base contract. The task orders awarded
previous to task order 0055 were task orders 0030 and 0044. However, the contracting
official could not locate the task order file for task order 0044.

Generally, the analysis in the PNMs for other cost categories, including other direct costs,
travel, equipment, subcontractor, and security was adequate. However, the direct labor
analysis had numerous discrepancies that contracting officials did not address in the
PNMs. We compared the labor categories and rates proposed to the previously awarded
task orders and the base contract, as described in the PNMs for each task order. Table 3
shows a summary of the labor that lacked support for assertion in the PNMs that the labor
rates were fair and reasonable.

  Table 3. Proposed Direct Labor That is Not Supported as Fair and Reasonable
             Labor Categories                         Total         Percent of
 Task                             Unsupported       Proposed      Unsupported
 Order Unsupported Total          Direct Labor        Direct        Proposed
                                                      Labor       Direct Labor
 0055          11           20       $3,161,190      $6,722,602            47.0
 0063          14           19         2,162,104      3,484,292            62.1
 0067          17           23       12,709,449      14,408,392            88.2
 0083          15           19         3,137,339      4,588,474            68.4
 0032           9           20         4,845,805     12,060,104            40.2
 Total         66          101      $26,015,887    $41,263,864           63.0%



                                            16

Task Order 0055
The contractor proposed a total of 20 labor categories for task order 0055. AFCEE
contracting officials added direct labor on the basic task order and modifications 1, 2,
and 6 and prepared PNMs for each. These PNMs stated that the direct labor rates were
fair and reasonable based on comparisons to the contractor’s negotiated rates on the
overall base contract and based on comparisons to previous work performed in Iraq.
However, upon performing this comparison, we found that the contracting officials had
not included 11 of the 20 labor categories in either the base contract or in previously
awarded task orders for work in Iraq and Afghanistan. Therefore, the contracting
official’s assertion in the PNM that these rates were fair and reasonable is unsupported
and, as a result, the Government had no assurance that the rates for these 11 labor
categories were fair and reasonable. The contractor proposed a total of $3.2 million for
these 11 labor categories, which represented 47.0 percent of the total amount proposed
for direct labor.

Task Order 0063
The contractor proposed a total of 19 labor categories for task order 0063. AFCEE
contracting officials added direct labor on the basic task order and modifications 1 and 2,
and prepared PNMs for each. These PNMs stated that the direct labor rates were fair and
reasonable based on:
    •	 comparisons to the contractor’s negotiated rates on the overall base contract,
    •	 comparisons to previous task orders, and
    •	 the determination that the danger pay allowance 1 included in the uplift 2 proposed
       for OCONUS work was appropriate.

However, upon performing this comparison, we found that the contracting officials had
not included 14 of the 19 labor categories in the base contract or in previously awarded
task orders for work in Iraq and Afghanistan. Therefore, the contracting official’s
assertion in the PNM that these rates were fair and reasonable is unsupported and, as a
result, the Government had no assurance that the rates for these 14 labor categories were
fair and reasonable. The contractor proposed a total of $2.2 million for these 14 labor
categories, which represented 62.1 percent of the total amount proposed for direct labor.

Task Order 0067
The contractor proposed a total of 23 labor categories for task order 0067. AFCEE
contracting officials added direct labor on the basic task order and modification 2 and


1
  The U.S. State Department defines danger pay allowance as the “the additional compensation of up to
35 percent over basic compensation granted to employees . . . for service at designated danger pay posts.”
2
  Uplift is a rate that consists of a danger pay allowance and a post hardship differential. The uplift
increases the labor rate for labor performed in dangerous areas where the standard of living is not
equivalent to the United States. The State Department defines a post hardship differential as the “additional
compensation of 5, 10, 15, 20, 25, 30 or 35 percent over basic compensation for service at places in foreign
areas where the conditions of environment differ substantially from conditions of environment in the
United States.”
                                                     17

prepared PNMs for each. These PNMs stated that the direct labor rates were fair and
reasonable based on:
    •	 comparisons to the contractor’s negotiated rates on the overall base contract,
    •	 comparisons to previous task orders, and
    •	 the U.S. State Department guidelines allowing for up to a 70.0 percent uplift for
       work performed in Iraq.

However, upon performing this comparison, we found that the contracting officials had
not included 17 of the 23 labor categories in the base contract or in previously awarded
task orders for work in Iraq and Afghanistan. Therefore, the contracting official’s
assertion in the PNM that these rates were fair and reasonable is unsupported and, as a
result, the Government had no assurance that the rates for these 17 labor categories were
fair and reasonable. The contractor proposed a total of $12.7 million for these 17 labor
categories, which represented 88.2 percent of the total amount proposed for direct labor.

In addition, the PNM for modification 2 stated that the rates for the third-country and
local nationals were fair and reasonable because they were significantly less than the
rates for Americans to perform the same work. The rates should be determined as fair
and reasonable based on the market rates and skill level for similar work in Iraq.

Task Order 0083
The contractor proposed a total of 19 labor categories for task order 0083. AFCEE
contracting officials included direct labor on the basic task order and prepared a PNM.
The PNM stated that the direct labor rates were fair and reasonable based on comparisons
to the contractor’s negotiated rates on the overall base contract and based on the uplift
rate being lower than the U.S. State Department danger pay allowance. However, upon
performing this comparison, we found that contracting officials had not included 15 of
the 19 labor categories in the base contract. Therefore, the contracting official’s assertion
in the PNM that these rates were fair and reasonable is unsupported and, as a result, the
Government had no assurance that the rates for these 15 labor categories were fair and
reasonable. The contractor proposed a total of $3.1 million for these 15 labor categories,
which represented 68.4 percent of the total amount proposed for direct labor.

Task Order 0032
This task order was broken into two sections, a firm-fixed-price section and a T&M
section. The contractor proposed a total of 23 firm-fixed-price labor categories and
20 T&M labor categories. AFCEE contracting officials included direct labor on the basic
task order and prepared a PNM. The PNM stated that the direct labor rates were fair and
reasonable based on comparisons to the base contract and based on the determination that
the uplift rate for OCONUS work was appropriate.

However, upon performing this comparison, we found that 9 of the 20 T&M labor
categories were not included in the base contract. Therefore, the contracting official’s
assertion in the PNM that the rates were fair and reasonable is unsupported and as a
result, the government has no assurance that the rates for these 9 labor categories were

                                             18

fair and reasonable. The contractor proposed a total of $4.8 million for these 9 labor
categories, which represented 40.2 percent of the total amount proposed for direct labor.

Because the government cannot accurately estimate the extent or duration of the work
when using a T&M contract, it is very important that contracting officials perform a
thorough analysis of all labor rates before work begins. AFCEE contracting officials
need to analyze all labor categories prior to determining an order is fair and reasonable.

Technical Evaluations
The technical evaluations of the labor hours and labor mix for all six task orders valued at
$120.8 million were inadequate. The FAR provides guidance on conducting technical
evaluations. FAR 15.404-1(e)(2), “Technical Analysis,” states, “At a minimum, the
technical analysis should examine the types and quantities of material proposed and the
need for the types and quantities of labor hours and the labor mix.”

The technical evaluations for each of these six task orders stated that the labor hours and
labor mix were appropriate for the work to be performed. The evaluations did not
contain sufficient detail or analysis to show that this determination was reasonable. The
technical evaluations should have specified which contracts or task orders the hours and
labor mix were compared to or what analysis was done to determine the appropriateness
of the labor hours and mix.

The contracting officer was aware of the inadequacy of the technical evaluations and had
attempted to address the issue with the evaluator several times, but could not get the
evaluator to prepare the technical evaluation correctly.

The pricing on a T&M contract or task order is directly related to the number of hours
worked for each particular labor category. Therefore, an inadequate technical evaluation
means that the Government has no assurance that the overall price for direct labor is fair
and reasonable. AFCEE needs to ensure that contracting and program officials document
their analysis so that a third party can easily review that document and determine how the
conclusion was reached. In addition, the analysis and accompanying documentation
should be able to stand alone. Contract and task order documentation should be
auditable.

Summary
The contracting officers and program personnel should have ensured that the task order
file contained a complete history of the transaction, including a documented and thorough
analysis to support a proper audit trail. A thorough and well-documented analysis would
ensure that source selection decisions were clear, the government paid a fair and
reasonable price, and the labor hour and labor mix were appropriate.




                                             19

Management Comments on the Finding and Our
Response
Department of the Air Force Comments
The Deputy Director, Air Force Center for Engineering and the Environment, partially
agreed with this finding. The Deputy Director has taken “appropriate measures” to
ensure that the Air Force adequately documents justifications for using time-and­
materials contracts, source selection, and price reasonableness. The Deputy Director
disagreed that the source selection memoranda for three of the task orders valued at
$78.5 million were inadequate. Also, the Deputy Director disagreed that contracting
personnel prepared the technical evaluations and stated that contracting officer’s
representatives prepared the technical evaluations. However, the Deputy Director agreed
to put measures in place to ensure that contracting personnel properly reviewed technical
evaluations.

Our Response
We disagree that the source selection memoranda for the three task orders valued at
$78.5 million were adequate. These memoranda did not provide a detailed account of the
contracting official’s analysis, which is necessary for auditability. A third party should
be able to easily review a source selection memorandum and arrive at the same
conclusion that the awardee was the most qualified. In addition, we disagree with the Air
Force’s assertion that contracting officer’s representatives are not contracting personnel.

Recommendations, Management Comments, and Our
Response
Deleted Finding and Renumbered Recommendations
As a result of management comments, we deleted draft Finding B and the corresponding
recommendation. Recommendation C has been renumbered to Recommendation B.

B. We recommend that the Director, Air Force Center for Engineering and the
Environment, hold contracting and program officials accountable by developing
effective internal controls for adequately documenting and describing their analysis
when determining price reasonableness, conducting technical evaluations, and
justifying the use of a time-and-materials contract or task order. This
documentation and analysis should be auditable, and all necessary attachments and
references should be clearly evident.

Department of the Air Force Comments
The Deputy Director, Air Force Center for Engineering and the Environment, agreed and
corrective actions have been taken to ensure adequate justifications, source selection
documents, and price reasonableness determinations are prepared for task orders.


                                            20

Our Response
The Air Force comments are responsive. No further comments are required.




                                         21

Appendix A. Scope and Methodology
We conducted this performance audit from December 2008 through May 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

As mentioned in the Background section of this report, this is the second report
addressing T&M contracts for work performed in Southwest Asia. Originally, we
intended to write one report. However, when determining which contracts and task
orders to review, we identified only one Air Force site and several Army sites. In
addition, during our Air Force site visit, we determined that contracting officials awarded
those task orders for AE services, which have different award procedures than other types
of contracts and task orders. Army contracting officials did not use AE award procedures
for the contracts and task orders we reviewed. To make these distinctions clear, we
separated the Air Force and Army findings into two audit projects.

For these two projects, we reviewed the award procedures and administration of
24 contracts or task orders and interviewed contracting and program personnel involved
in the process. Each task order or contract had documentation related to the pre-award
process and administration that had to be analyzed. To comply with the audit objectives,
we had to, in some instances, review prior contracts or task orders not part of the scope
because the contract action we audited referred to previous contract or task order. In
addition, as part of this audit, we analyzed hundreds of invoices. This analysis included
comparing each labor category and rate to the categories and rates approved in the task
order. In addition, we interviewed DoD personnel assigned oversight duties. For most of
the orders, this required contacting multiple people assigned to oversight responsibilities
in-theater because those personnel were there for 3 to 4 month increments and then
rotated out with new personnel replacing them. We expended time tracking these
rotating personnel to their current assignment.

Overall Audit Scope
We used two database systems to identify the scope for the audit—the Federal
Procurement Data System and the Electronic Document Access System. The Federal
Procurement Data System is used to collect data about Government procurements. The
DOD IG Data Mining Division input data from the Federal Procurement Data System
into a database, which the audit team used to run queries. The queries identified contract
actions awarded in FY 2007 and FY 2008 that were T&M with work performed in Iraq or
Afghanistan. We used the information gathered from the Federal Procurement Data
System to search the Electronic Document Access system. The Electronic Document
Access system is an online document access system designed to provide acquisition
related information for use by all of DOD. The Electronic Document Access system
provides copies of the actual contract or task order so we used the system to identify the

                                            22

original and current value of the contracts and task orders we had identified through our
queries of the Federal Procurement Data System.

Using the Federal Procurement Data System, we identified 258 contract actions issued in
FY 2007 and 2008 with a total obligated amount of $658.5 million. These 258 contract
actions consisted of contracts, task orders, and modifications. The 258 contract actions
represented 58 contracts or task orders.

We eliminated all contract actions related to contract F34601-97-D-0425 because of a
separate, ongoing audit. The DOD IG issued DOD IG Report No. D-2010-047, “Repair
and Maintenance Contracts for Aircraft Supporting Coalition Forces in Afghanistan, Iraq,
and Kuwait,” discussing that contract on March 26, 2010. Excluding those contract
actions, 166 contract actions remained related to 51 contracts or task orders with a total
obligated amount of $202.1 million. We used the Electronic Document Access system to
identify the amount of those contracts and task orders at the end of CY 2008. At the end
of CY 2008, the 51 contracts or task orders had a value of $976.6 million.

We selected contracts and task orders that had a product or service code that was in the
“Support Services – Professional, Administrative & Management” category or with
values of at least $10 million to review. These criteria reduced our scope to 26 contracts
or task orders with a value of $929 million, which is 95.1 percent of the value of the
51 contracts or task orders previously identified.

Of the 26 contract actions with a value of $929 million, we judgmentally selected to
review 14 contracts or task orders with a value of $254.7 million. We chose these
contracts and task orders based on the type of work being performed, the number of
contracts and task orders at that site, and the location of the site. We added an additional
contract to review at one of the sites. Therefore, we selected 15 contracts or task orders
with a total value of $261.2 million awarded by four contracting offices to review.

AFCEE Scope
Of the 15 contracts and task orders we initially identified, AFCEE awarded 4 task orders
with a value of $91.2 million. During our site visit, we identified two additional task
orders to review. Therefore, at AFCEE we reviewed a total of six task orders with a
value of $120.8 million. Five of the task orders reviewed were for title II services and the
remaining task order was for other AE services.

We interviewed only three CORs for the five title II task orders reviewed. Two CORs
were permanently located in the United States. The remaining COR was in Iraq a few
months before we interviewed him. During that time, his primary duties were focused on
construction surveillance. Our determinations related to the sufficiency of contract
oversight in-country were the result of interviews with these two CORs and the
contracting officer.



                                             23

AFCEE Methodology
We conducted a site visit at AFCEE’s contracting office to review contract
documentation and interview contracting and program officials responsible for contract
award and administration. We conducted follow-up communication through telephone
and e-mails.

We reviewed the six task order files to determine whether DOD:
  •	 contracting officials adequately justified the use of a T&M type contract with a
      D&F in accordance with FAR 16.601(c),
  •	 contracting officials complied with competition requirements,
  •	 contracting officials paid fair and reasonable prices for products and services, and
  •	 program officials prepared QASPs and conducted sufficient contract oversight to
      ensure that contractors efficiently and effectively completed their requirements
      and prepared accurate invoices.

Use of Computer-Processed Data
We used computer-processed data from two databases to indentify contracts and task
orders to review—the Federal Procurement Data System and the Electronic Document
Access System. We ran queries using both of these systems.

We did not assess the reliability of computer processed data because the data were used
only to identify which task orders to review. Once we identified the orders that matched
our criteria, we used only the documentation contained in the contract files to support our
findings, conclusions, and recommendations.




                                            24

Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), DOD IG, Army
Audit Agency, and Air Force Audit Agency have issued 19 reports discussing T&M
contracts, Southwest Asia, and government oversight issues. Unrestricted GAO reports
can be accessed over the Internet at http://www.gao.gov. Unrestricted DOD IG reports
can be accessed at http://www.DODig.mil/audit/reports.

Unrestricted Army reports can be accessed from .mil and gao.gov domains over the
Internet at https://www.aaa.army.mil/.

Naval Audit Service reports are not available over the Internet.

Air Force Audit Agency reports can be accessed from .mil domains over the Internet at
https://afkm.wpafb.af.mil/ASPs/CoP/OpenCoP.asp?Filter=OO-AD-01-41 by those with
Common Access Cards.

GAO
GAO Report No. 09-579, “Contract Management: Minimal Compliance with New
Safeguards for Time-and-Materials Contracts for Commercial Services and Safeguards
Have Not Been Applied to GSA Schedules Program,” June 24, 2009

GAO Report No. 09-643T, “Defense Acquisitions: Actions Needed to Ensure Value for
Service Contracts,” April 23, 2009

GAO Report No. 08-269, “Defense Contracting: Contract Risk a Key Factor in Assessing
Excessive Pass-Through Charges,” January 25, 2008

GAO Report No. 07-273, “Defense Contracting: Improved Insight and Controls Needed
Over DOD’s Time and Materials Contracts,” June 29, 2007

GAO Report No.06-838R, “Contract Management: DOD Vulnerabilities to Contracting
Fraud, Waste, and Abuse,” July 7, 2006

GAO Report No. 05-274, “Contract Management: Opportunities to Improve Surveillance
on Department of Defense Service Contracts,” March 17, 2005

DOD IG
DOD IG, Report No. D-2010-047, “Repair and Maintenance Contracts for Aircraft
Supporting Coalition Forces in Afghanistan, Iraq, and Kuwait,” March 26, 2010

DOD IG Report No. D-2009-109, “Contracts Supporting the DOD Counter
Narcoterrorism Technology Program Office,” September 25, 2009


                                            25

DOD IG Report No. D-2009-096, “Contracts for the U.S. Army’s Heavy-Lift VI Program
in Kuwait,” July 28, 2009

DOD IG Report No. D-2009-007, “Procurement and Use of Nontactical Vehicles at
Bagram Air Field, Afghanistan,” October 31, 2008

DOD IG Report No. D-2008-097, “Hurricane Relief Effort Costs on the Navy
Construction Capabilities Contract,” May 23, 2008

DOD IG Report No. D-2007-036, “Contracting Practices at the Major Range and Test
Facilities Base,” December 27, 2006

DOD IG Report No. D-2006-061, “Source Selection Procedures for the Navy
Construction Capabilities Contract,” March 3, 2006

DOD IG Report No. D-2006-010, “Contract Surveillance for Service Contracts,”
October 28, 2005

DOD IG Report No. D-2006-007, “Contracts Awarded to Assist the Global War on
Terrorism by the U.S. Army Corps of Engineers,” October 14, 2005

Army
Army Report No. A-2006-0091-ALL, “Audit of Management of the Theater
Transportation Mission (Task Order 88), Audit of Logistics Civil Augmentation Program
Operations in Support of Operation Iraqi Freedom,” April 4, 2006

Army Report No. A-2006-0083-ALL, “Audit of Retrograde Operations (Task Order 87),
Audit of Logistics Civil Augmentation Program Operations in Support of Operation Iraqi
Freedom,” March 21, 2006

Air Force
Air Force Report No. F2008-0004-FC1000, “Competition in Multiple-Award Service
Contracts,” April 3, 2008

Air Force Report No. F2008-0001-FC1000, “Management and Oversight of the
Acquisition of Services Process,” October 1, 2007




                                          26

Air Force Center for Engineering and the Environment
Comments




                                     DEPARTMENT OF THE AIR FORCE
                            AIR FORCE CE NTER FOR ENGINEERI NG AND THE ENVI RONME NT
                                         LACKLANO AIR FORCE SASE TEXAS


                                                                                1 5 JUN 20111


       MEMORANDUM FOR DODIO

       FROM: AFCEEIDC
             2261 Hughes Ave, Ste. 155
             Lackland AFB TX 78236-1845

       SUBJECT: Management Comments for DoD 10 Draft: Rcport of Audit, Time and Matcrials
                Contracts in Southwest Asia

               We non-concUf with the audit results regarding the review and usc of Time and Materials
       contract in Southwest Asia, and concur with comments on some of the recommcndations. The
       specific managcment comments are attached.

               AFCEE belicves the draft: report will materially and substantially change. Based on the
       anticipation of substantive changes, we request a revised draft report be sent to us. We will then
       provide our fonnal review comments within lO days from when the revised report is received.

                                                     with our comments, please contact _




                                                    4(Jf~F
                                                        Civilian Deputy Director

       Attachment:
       Management Comments




                                                                  27
                                        DoD IG Audit
                     Report of Audit, Use of Time and Materials Contracts
                              (Project D2009-DOOOCF-009S.001)
                               AfCEE Management Comments

Finding A, Contract Oversight:

 Audit Result 1. AFCEE contracting and program officials did not perform adequate
 contract oven ight for AI? work performed on tbe six task orders we reviewed valued at
 S1 20.8 million.

 While AFCEE concurs with some recommendations, we do not agree in all cases, with the
 statement of conditions leading to the recommendations. The management comments below
 further amplify the condition statement analysis.

  AFCEE personnel did not monilor the contractors hired to petform the oVt!I'sightfunction
 for construction work in Iraq and Afghanistan/or fi ve task orders valued at $110.2 mil/ion.

 NOD-Concur. ex and ACQ di spute this characterization. It is AFCEE's view construction
 CORs oversaw Title II activity. It appears a substantial oversight OCCUlTed and the
 construction CORs were not properly designated Title II CORso AFCEE is correcting this
 administrative oversight by providing the needed appointment.
                            Click to add JPEG file
    A FCEE personnel did not adequately review invoices for fi ve task orders valued at $98.6
 million:

 Concur. AFCEE previously identified a weakness in the legacy process used to review
 contractor invoices and in Feb 2007 PUI into place an Invoice Review Team and fonnal process
 to review each and every invoice. This new fonnal invoice review process ensures invoices
 submitted after Feb 2007 meet requirements fo r adequacy and compliance. AFCEE
 acknowledges that we failed to take retroactive actions to review older invoices submitted prior
 to inception of the CUlTent formal invoice review process.


    AFCEE personnel did not prepart! qualily assurance surveillance plans (QASPs) f or the
 six task orders:

 Noo·Coocur. FAR §46.401 calls for Quality Assurance Surveillance Plans for both services
 and supplies . FAR §37.101 includes A·E contracting within the application of Part 37.
 Immediate ly thereafter, however, FAR §37. 102 (aX1)(i) specifically states that A·E services
 acquired under Part 36 are outside the application of the policy that Perfonnance Based
 Acquisition (PBA) should be used when buying services. It is Subpart 37.6, Performance
 Based Acquisition, which mandates Quality Assurance Surveillance Plans. Strictly speaking
 then, the QASP of Subpart 37.6 is not required.




                                               2




                                                          28
  Audit Result I • Recommendations: The AFCEE Commander should:

  Audit Result 1- Recommendation A.t. Establish a written plan to review the invoices for the
  six time-aDd-materials task orders; request the Defense Contract Audit Agency's assistance in
  reviewing invoices for allowable, allocable, and reasonable costs; obtain reimbursements for
  incorrect charges; and report the amounts reimbursed on a periodic basis to the appropriate officials
  at the Air Force Center for Engi neering and the Environment and the DOD Inspector General. The
  plan shou ld require specia l attention to the $24.5 million of charges fo r labor charges invoiced by
  the contractors but not authorized by the task orders.

  Non -Concur. A surveillance plan exists for each Task Order reviewed and is located in each
file. AJso, an Invoice Review Team is in place which reviews invoices before submission to
OF AS for payment.

  Audit Result 1 ~ Recommendation A.2. Assign contracting officer' s representatives or other
  Government officials to develop quality assurance surveillance plans and conduct and document
  appropriate surveillance over the title II contractors to ensure that work performed on a time-and-
  materials basis is being perfonned in accordance with the task order requirements and is invoiced
  correctly.

  No n-Concur. It is AFCEE's view construction CORs oversaw Title 11 activity. It appears a
substantial oversight occurred and the construction CORs were not properly designated Title n
                              Click to add JPEG file
CORso AFCEE is correcting this administrative oversight by providing the needed
appointments.


  Audit Result 1 - Recommendation A.3. Conduct a Icgal review of the statements of work for
  the title JI task orders to determine whether the work performed was an inherently governmental
  function.

  Concur. Verbatim language from the AFCEE/JA legal review is included below.



Our Legal Division reviewed the six SOWs in light of the proposed inherently governmental
activity rule ofOFPP which follows the FAIR Act. (75 FR 16188). It is the opinion of our
Legal Division that:

   Task Order 8620-0055, 4P AE03 , awarded 28 Mar 06.

         a. The essential Title 11 function is common to all of the task orders. It is noted that
" Provision of inspection services" is on the list entitled, " Functions Closely Associated with the
Perfonnance of Inherently Governmental Functions", Appendix B of the proposed rule, rather
than the list in Appendix A, "Examples of Inherently Governmental Functions." This placement
is instructive, as it underlines that inspection is an important function. but does not equate to the
performance of an inherently governmental function. There are several recommendations for the
conduct of such a contract in the rule. Here are how a few of those recommendations align with
the SOWs:

                                                   3




                                                               29
             i. The draft rule suggests the USG limi t or guide a contractor's exercise of
discretion and retain control of government operations. In the case of the Title n task orders, the
contractor was directed in the SOWs to enforce the International Building Code as well as other
guides, such as the Sand Book. The contractor was not at liberty to waive these or establish its
own standard . Further, the pre-flnal inspection of the completed project required the presence of
the CO or their designee. At this critical juncture of the A-E oversight effort. the contractor' s
discretion was checked by the presence of the CO. This leads to the conclusion that the presence
of •he contractor did not function to present a predetermined decision to the CO on fmal
consideration of the overseen construction project.

             ii. While the proposed rule recommends that functions closely associated be
administered by a set of qualified government employees (See 5-2a (c» , it provides no formula
for such surveillance. in the case of AfCEE 's Title II in Iraq and Afghanistan. qualified
government employees did conduct surveillance of the Title II effort. While it may not have
been at the frequency of the observation of a contract in CONUS, it also cannot be dismissed.

           b. AFCEE noted that thc TO also observes that the Title II contractor may also be
appointed the " Base Engineer" in some locations as needed. The same oversight by the USG as
above would necessarily be in place plus the constraint of being unable to obtain anything of a
contractual nature on its own that would bind the USG. A unifonned service member serving as
a base engineer may not obligate funds in the Air Force, so no inherently governmental role is
presented here either.
                              Click to add JPEG file
   Task Order 8620-0063, 4PAE03, awarded 17 Oct 06.

           c. This task order differed from 0055 general ly only in location. This one called for
the contractor to oversee construction in Afghanistan rather than lraq. This is well represented
by the description in para 2.2 where it states that the contractor shall, " ... perform and submit to
AfCEE detailed audits of construction performed by contractors prior to finaJ project close-out."
Again, the Title II contractor is put in the position of an inspector, not a fmal arbiter of the
USG's acceptance of the contract.

           d. By the same token, para 2.2 aJso calls on the Title II to be present for " ... routine
meetings between the onsite government representatives and the construction contractors where
construction management and quality are topics of discussion." The contractor is called on to be
present, not to conduct the acceptance of the work.

   Task Order 8620-0067, 4PAE03, awarded 5 Apr 07, for work in Iraq.

           e. This task order added the following possible duties: "Title II personnel may, upon
consultation with the AFCEE COR. be asked to perform speciaJ engineering studies and
assessments of current or pending construction projects. The contractor will ensure long-term
AFCEE lraq program continuity by placement of a construction engineer to serve as a Title II
liaison to MNSTC-I J-7 staff."

              i.     The ~I on the T ille II to conduct "special engineering studies" is surely
very unremarkable for an A·E order. Notably it is wholly devoid of calling on the contractor to
exercise GovemmentaJ decision powers.

                                                  4




                                                             30
                ii.     The direction to furnish a "Title 11 liaison" also presents no fundamental
function of Government to be performed by the contractor. The language presented calls only
for continuity, not for decision making power to reside in the contractor. That this would be a
requirement of the contract is reasonable, given that the task order called for up to t 751raqi
engineers to serve in the Title 11 role on individual projects. Coordinating this site-by-site
inspection effort with the requiring activity is a matter of contract management, not decision
making.

   Task Order 0083, 4PAE03, 8 Feb 08, Afghanistan

            f. The oversight of a contractor can be indicative of the degree to which it is being
allowed or tasked to perfonn governmental functions. Note can be taken of the reporti ng
requirements emplaced on the Title II contractor in this TO : " Because of the number of small
projects and the required transportation and security costs, only weekly reports will be necessary
on renovation projects at this time. Site visits will occur at a minimum of three times per week
for Afghan National Police projects, while Afghan National Anny projects will require daily
oversight. Also, pre-final and fmal inspection letters, and construction closeout fonns will be
provided. The Contractor shall perfonn and submit to AFCEE detailed audits of construction
performed by contractors at intervals o f25 , 50, 75 percent project completion and prior to final
project close-out. The contractor shall also perfonn submittal reviews of all contractor submittals.
Such reviews may require an on-site visual review or off-site comprehensive reviews depending
on their nature (material acceptance versus load calculations)." What this renects is a graduated
                                 Click to add JPEG file
oversight, adjusted to the nature of the work being overseen. The key point is that the Title n
engineers are not being appointed to decision making roles, but observation and reporting.
Ultimate decisions remained with the USG.

   Task Order 8606-104, awarded 16 Mar 06, Master Planning in Afghanistan
           g . This TO required in pertinent part the following performance:
       "The Contractor shall provide advanced planning services such as installation and facility
       programming and planning of facilities of interes t to the government and prepare Master
       Plans and Cost Estimates for the prioritized projects listed in Section 1 of this SOW. Services
       and studies may include. but are not limited to sub-area development plans. Development
       plans shall include rough cost estimates required for execution, and may include feasibility
       studies as directed for altemative program recommendations. and economic studies associated
       with programs recommended by the AF. In addition. complete renderings, technical field
       investigation and survey requirements, field reconnaissance and surveying, and engineering
       infonnation and design data and other project specific work as required. Other professional
       services not necessarily connected with a specific conSD'Uction project may also be required .

            h . Other than the last sentence, the task order called for the development of Master
Plans at a set of designated bases. No indication affInal decision making or foreclosure of
meaningful options is implied by this list. As to the last sentence, it is difficult to see the
direction of the A-E fInn to serve as a substitute for Goverrunental authorities in its content.

   Task Order 32, 4PAE08, Title 1/ in Iraq. The audit found this task order was awarded
   properly.




                                                        5




                                                                     31
                                                                                                          Final Report 

                                                                                                           Reference





Finding B, Task Order Award
                                                                                                        Deleted Pages
We reviewed six task orders valued at $120.8 million that AFCEE contracting officials awarded           12-16, Finding B
using the 4PAE03 and 4PAE08 multiple-award contracts. AFCEE contracting officials did not
provide fair opportunity to all qualified contractors when awarding five task orders valued at S110.2
million because they awarded the task orders using FAR Part 36 procedures instead of FAR Part 16
procedures. The contracting officials used the FAR Part 36 procedures because they were treating the
requirement as if registered and licensed engineers were required . As a result, AFCEE contracting
officials limited competition by not providing all multiple-award contractors with a fair opportunity
to be considered for award.




Non-Concur. Jt is our view that this finding reflects a reading of FAR Subpart 36.6 which is
improper and too narrow. Our analysis follows.

           a. First, the above view does not take into account the broad definition of what is
              "architect - engineer services" (hereafter "A-E services"). Notably, as the audit
              ciles, FAR 36.601-4 (a) directs that "Contracting officers should consider the
              following services to be "architect - engineer services" subject to the procedures
              of this subpart: ... (3) Other professional services of an architectural or
              engineering nature or services incidenta1 thereto (including studies ... construction
              phase services, ... ) that logically and justifiably require perfonnance by registered
                              Click to add JPEG file
              architects or engineers or their employees." From this definition of what
              constitutes A-E services, it is clear that the drafters of this definition considered
              construction phase services, such as Title   n.  to be a clear instance of what is
              logically and justifiably the work of an A-E professional. The definition does not,
              however. isolate such work to licensed A-E professionals as the audit implies.
              Instead, the employees of regi stered A-E are specifically included. Within the
              definition of A-E services, then, is construction phase services perfonned by the
              employees of registered architects and engineers.

           b. Second, the audit gives AFCEE none of the discretion the GAO has recognized as
              pertaining to the choice of placing work on an A-E contract. In discussi ng a
              Forest Service decision to place certain work on a non-A-E contract, the GAO
              stated, " .. .the determination of Brooks Act applicability should be made initially
              on a case-by-case basis by the contracting officer in accordance with the
              definition provided in the 1988 amendment and the FAR, since, as indicated in
              the conference report, this initial decision is within the discretion of the
              contracting agency. See H.R. Rep No. 100-1079 at 89. We will review such
              determinations where it is alleged that the contracting officer has abused their
              discretion or made the determination in bad faith." Matter of Forest Service
              Requestfor Advanced Decision, 68 CompoGen. 555, 8-233987, 8-233987.2, 89-
               2 CPFD P 47, 1989 WL 237508 (Comp. Gen.) 1989. Thus the GAO decided that
               agencies should find first whether the work contemplated is incidental to A-E
               effort and then make an appropriate placement. It did not hold that the work had
               to be exclusively perfonned by licensed A-E professionals as the audit concludes.

                                                  6




                                                                32
           c, Third, the single line excerpted from the SOW does not give an accurate
              impression of what was actually purchased on the contract. On the six TOs in
              question, and across the entire effort in Iraq and Afghanistan, the AFCEE Title U
              contractor hired third country national (TeN) engineers to serve on site,
              overseeing local oatiana1 (LN) engineers. In turn, the TeN and LN engineers at
              the construction site were overseen by licensed and registered U.S. engineers,
              sometimes located in the U.S., and at times in-country. It is AFCEE's conclusion
              the purchase of A-E effort is not confined to U.S. licensed A-E professionrus.
              The statements of work may not have been ideal ly worded. In the future, AFCEE
              wi ll word the SOW sentence in question as fo llows, IOFor the purpose of
              continuous on-site Title II efTo n, the A-E finn need not provide architects and
              engineers holding U.S. licenses, but will provide engineers holding credentials in
              the host nation as well as engineers holding crc:dentiaJ s in third countries, as
              appropriate. "

           d. The audit observes that lacking the demand for licensed A-E professionals, the
              contracting officer should have submitted the work to all contract holders on the
              4PAE03 or 4PAE08 contract and thus gain price competition. This is not legally
              possible. Both contracts were awarded using Part 36 procedures. To then use
              FAR § 16.505 as though a purchase were being made pursuant to the requirements
              of Pan 37, a simple services buy, would violate the basic Part 36 contract.
              Assuming tha t the services intended to be purchased did not constitute A-E
                             Click to add JPEG file
              professional services, a point we do not grant, the contracting officer would have
              needed to avail himself of a different contract, one using Part 37.

           e. In summary, it is AFCEE's view that, first, construction phase services is an A-E
              service. It is routinely awarded as A-E throughout the Air Force and the broader
              Dept of De fens. (See, To The Boutwell Company, Inc., S - 153704, 1964 WL
              2187 (Comp.Gen.):Oct. 13, 1964). Second, an A-E contract may not bring about
              fair and reasonable price through price competition. Instead, an A-E vehicle may
              only negotiate price once the most qualified contractor has been selected.


 Audit Result 2 - Recommendation B.l. We recommend that the Director, Air Force Center for
 Engineering and the Environment require that contracting offici als compete task orders for services
 that do not have to be performed by registered or licensed architects and engineers using the fair
 opportunity procedures outli ned in the Federal Acquisition Regulation for multiple-award,
 indefinite-del ivery, indefinite-quantity contracts.

Non-Concur. The audit observes that lacking the demand for li censed A-E professionals, the
contracting officer should have submitted the work to aJl contract ho lders on the 4PAE03 or
4PAE08 contract and thus gain price competition. This is not legally possible. Both contracts
were awarded using Part 36 procedures. To then use FAR §16.505 as though a purchase were
being made pursuant to the requirements of Part 37, a simple services bu y~ would violate the
basic Part 36 contract. Assuming that the services intended to be purchased did not constitute A-
E professional services, a point we do not grant, the contracting officer would have needed. to
avail himself of a different contract, one using Pan 37. In the future, AFCEE will word the

                                                 7




                                                            33
                                                                                                        Final Report 

                                                                                                         Reference





SOW sentence in question as follows, "For the purpose of continuous on-site Title n effort, the
A-E finn need not provide architects and engineers holding U.S. licenses. but will provide
engineers holding credentials in the host nation as well as engineers holding credentials in third
countries, as appropriate."

Finding C, Task Order Documentation                                                                   Renumbered as
                                                                                                      Finding B
  Audit Result 3. Task Order Documentation


   A FCEE contracting officials did not pl't!pare a justification for Ihe USI! 0/ a T &M task order
      l or one task order valued aJ $18.3 million.

     CODCur. Appropriate measures have been put into place to ensure proper j ustification on
   T&M task orders.

   A FCEE contracting offICials prepared an inailequaJejuslijicalion/or the use ofo T&M task
      order JOT one task order valued at $24.0 million

    Concur. Appropriate measures have been put into place to ensure proper justification on
T&M task orders.

                             Click to add JPEG file
   A FCEE contracting officials did not prepare a source selection document for one task order
      valued at S18.3 million

    Concur. Appropriate measures have been put into place to ensure source selection
documents are prepared and placed in the file.


   AFCEE contracting offICials prepared inadequate source selection documents for three task
     orders valued at $78.5 million

     Non-Concur. A Source Selection Memorandum was used in the selection of the contractor
in acco rdance with the ordering clause.

   A FCEE contracting officials prepared inadequate price reasonableness determinations for five
      task orders valued oJ S1 10.2 million-specifically, officials did not support that $26.0
      mil/ion in proposed direct labor represented a fair and reasonable price

        Concur. Labor categories and labor rates for TCNfLNs on these task orders were not
incorporated into the labor base lUltillater modifications . Appropriate measures have been PUI
into place to ensure adequate price reasonableness detcnninations are accomplished.


   A FCEE contracting officials prepared inadequate technical evaluoJions for the orders valued
      at $120.8 million

                                                  8




                                                              34
                                                                                                      Final Report 

                                                                                                       Reference





       NOD-Concur. Technical evaluations are not prepared by contracting personnel but by the
Contracting Officer Representatives. However, measures have been put into place to ensure the
technical evaluations are properly reviewed by contracting personnel.


 Audit Result 3· RecommendatioD c.l. We recommend that the Director, Air Force Center for           Renumbered as
 Engineering and the Environment hold contracting and program officials accountable by              Recommendation B
 developing effective internal controls for adequately documenting and describing their analysis
 when determining price reasonableness, conducting technical evaluations, and when justifying the
 use of a time-and-materials contract or task order. This documentation and analysis should be
 auditable, and all necessary attachments and references should be clearly evident.


      Concur. Corrective actions have been accomplished where noted under Audit Result 3,
   Task Order Detennination.




                            Click to add JPEG file




                                                 9




                                                            35
